IN THE SUPREME COURT OF THE UNITED STATES

RPM INTERNATIONAL INC., RUST-OLEUM CORPORATION,
Petitioner,
Vv.

ALAN STUART, TRUSTEE FOR THE CECIL G. STUART AND DONNAM.
STUART REVOCABLE LIVING TRUST AGREEMENT, CDS DEVELOPMENT,
LLC

Respondents,

CERTIFICATE OF SERVICE

I, George Thomas Lyons, III, counsel for the Petitioners RPM International
Inc. and Rust-Oleum Corporation (collectively, “Petitioners”), hereby certify that on
this 4th day of September, 2020, I caused copies of the Petition for Writ of
Certiorari to be served by a third-party commercial carrier for delivery within three
calendar days on the following counsel:
Jonathan K. Waldrop Gwaldrop@kasowitz:com)
Kasowitz Benson Torres LLP
333 Twin Dolphin Drive, Suite 200
Redwood Shores, California 94065
(650) 453-5170

Counsel for Respondents

I further certify that all parties required to be served have been served.

Respecjfully s

 

300 South Wacker Drive
Chicago, IL 60606

(312) 913-0001

Counsel for Petitioners
